                              SENSITIVE BUT UNCLASSIFIED




                 (U) UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                            (U) OFFICE OF INSPECTOR GENERAL


(U) AUD-MERO-13-37                                Office of Audits                                  September 2013




      (U) Audit of the Bureau of International
      Narcotics and Law Enforcement Affairs
       Corrections System Support Program
                   in Afghanistan




(U) IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

                                                             United Statef. Dt>partment of State
                                                             and the Broadcasting Board of Gow·rnors

                                                             Office of Inspector General




                                        (U) PREFACE


     (U) This report was prepared by the Office oflnspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 ofthe Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     (U) This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      (U) The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     (U) I express my appreciation to all of those who contributed to the preparation of this
report.




                                            (U) Harold W. Geisel
                                            (U) Acting Inspector General




                              SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


(U) Acronyms
(U) CSSP       Corrections System Support Program
(U) FAM        Foreign Affairs Manual
(U) GDPDC      General Directorate of Prisons and Detention Centers
(U) GIRoA      Government of the Islamic Republic of Afghanistan
(U) INL        Bureau of International Narcotics and Law Enforcement Affairs
(U) INL/AP     Bureau of International Narcotics and Law Enforcement Affairs,
               Afghanistan/Pakistan Office
(U) OIG        Office of Inspector General
(U) USAID      United States Agency for International Development




                     SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED


                                                   (U) Table of Contents
Section                                                                                                                                Page

(U) Executive Summary ..................................................................................................................1

(U) Background…. ..........................................................................................................................4

(U) Objective……. ..........................................................................................................................6

(U) Audit Results ............................................................................................................................7
      (U) Congressional Certification Requirements Were Not Fully Met ..................................7

(U) Appendices
      (U) A. Scope and Methodology .........................................................................................19
      (U) B. Bureau of International Narcotics and Law Enforcement Affairs Response .........21
      (U) C. Office of Inspector General Replies to Bureau of International Narcotics
             and Law Enforcement Affairs Technical Comments.............................................36

(U) Major Contributors to This Report ..........................................................................................39




                                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                                      (U) Executive Summary
         (U) In 2006, the Department of State (Department), Bureau of International Narcotics and
Law Enforcement Affairs (INL), established the Corrections System Support Program (CSSP) to
assist the Government of the Islamic Republic of Afghanistan (GIRoA) in building a safe,
secure, and humane prison system that meets international standards and Afghan cultural
requirements. To meet that mission, INL focuses on providing the General Directorate of
Prisons and Detention Centers (GDPDC) 1 with training, mentoring, and professional assistance.
INL has projected that CSSP will continue through 2016, with several major CSSP initiatives
scheduled to transition to the Afghan government between 2013 and 2015. As of June 5, 2013,
The Department has obligated $226 million and expended about $208 million for CSSP contract
task orders with PAE 2 to provide training, capacity building, and infrastructure support to the
GDPDC. The Department of State, Office of Inspector General (OIG), conducted this audit to
evaluate whether INL was effectively managing CSSP and to determine whether GIRoA could
sustain the program’s results.

        (U) Because of sustainability concerns for U.S.-funded programs in Afghanistan, the
Consolidated Appropriations Act of 2012 levied additional requirements on all INL programs in
Afghanistan, to include CSSP. The Act stated that before FY 2012 INL funds could be obligated
for Afghanistan-based assistance programs, the Secretary of State must certify to the
Appropriations Committees that the funds would be used to “design and support” programs in
accordance with the June 2011 United States Agency for International Development (USAID)
sustainability guidance. The “Administrator’s Sustainability Guidance for USAID in
Afghanistan” was designed to ensure that U.S. Government resources are properly aligned with
U.S. and Afghan national interests. On November 28, 2012, the Deputy Secretary certified to
Congress that FY 2012 INL funds would not be obligated unless INL programs met the
requirements of the USAID sustainability guidance. However, on March 13, 2013, INL began
obligating FY 2012 CSSP funds without fully meeting those requirements. Specifically, INL
had not

        •   (U) conducted a program review to determine CSSP program and cost effectiveness,
        •   (U) estimated the costs and activities necessary for the Afghans to sustain the
            corrections program, or
        •   (U) developed a quarterly assessment and reporting process for measuring CSSP
            success in achieving its program outcomes and GIRoA progress on meetings its
            commitments.

As a result, INL has no basis for determining whether CSSP is an effective program with a
positive return on its $226 million investment; whether the program should be revised, reduced,
or canceled; or whether the GIRoA will have the capacity to sustain the corrections program


1
 (U) The GDPDC was previously known as the Central Prisons Directorate.
2
 (U) The former Pacific Architects and Engineers is now a wholly owned subsidiary of Lindsay Goldberg, LLC,
doing business as PAE.

                                                      1

                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


once international contributions are reduced. At current GIRoA funding levels, the Afghan
corrections program is not sustainable without continued international support.

        (U) During the audit INL conducted a Mission Kabul Portfolio Review for “Corrections
System Development,” which included, but was not limited to, CSSP. However, the portfolio
review did not fulfill the requirements of the USAID sustainability guidance, which calls for
immediate and on-going program reviews to determine whether a program is meeting the core
principles of the guidance. Specifically, the portfolio review did not include an evaluation of
CSSP effectiveness, either programmatically or cost-wise, one of the core principles in the
sustainability guidance. In addition, the portfolio review did not identify the costs for GIRoA to
sustain CSSP, nor whether GIRoA can sustain the corrections system, as the sustainability
guidance requires. In October 2012, INL issued a performance management plan 3 which OIG
acknowledges is a key first step in improving CSSP monitoring. However, INL had not met all
of the plan’s requirements to include completing an initial review of CSSP’s progress in meeting
its outcomes and intended impacts. In addition, the plan does not include a requirement for
evaluating GIRoA’s progress in meeting its commitments to CSSP.

        (U) In its August 20, 2013, response to the draft report (see Appendix B), INL raised
concerns on the report finding and OIG’s use of certain terminology. Specifically, INL
disagreed with the following statement: “If [GIRoA] is unable to sustain the corrections program
when international support is likely reduced post 2014, the Department risks waste of about $226
million in CSSP program costs.” INL considered this to be an “overstatement.” INL stated that
with the support of CSSP the “GDPDC has developed the capacity to administer its own training
program, with 22 of 24 corrections courses currently taught by GDPDC trainers” and that CSSP
had improved GDPDC’s ability to manage its provincial prisons. INL further stated that the
gains represent a return already achieved on the investment and reflects enduring capacity
improvements of Afghan personnel that will remain even as international support decreases.
INL also disagreed with OIG’s finding that CSSP did not meet the requirements of the
Congressional certification, stating that it “believes that CSSP is consistent with the core
principles” of the USAID sustainability guidance. In Attachment 3 to its response, INL also
provided technical comments in which it expressed concern regarding the reported
implementation date for the CSSP performance management plan and the clarity of some of the
terminology used by OIG in the draft report.

        (U) OIG maintains the position that if GIRoA is unable to sustain the corrections system
the Department’s $226 million investment in CSSP is at risk. At current GIRoA funding levels,
and without international support, the number of courses the GDPDC trainers can teach and
improvements in prison management become less relevant if the GDPDC cannot retain its staff.
According to the GDPDC Director, there is a 33 percent attrition rate among the corrections
officers, many of whom cited salary concerns as the primary reason for leaving the GDPDC.
The Director also stated that the officers’ counterparts in the national police receive a higher
salary and that additional corrections staff will likely leave to seek jobs with more reliable

3
 (U) INL began developing the CSSP performance management plan in 2011 with the first draft dated October
2011; the final performance management plan was approved and issued in October 2012.

                                                      2

                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


salaries if international funding for the corrections system is reduced and GIRoA is unable to
sustain the GDPDC budget. OIG agrees that some aspects of CSSP align with core principles in
the USAID sustainability guidance; however, not all core principles were met prior to obligating
FY 2012 CSSP funding as required by the Consolidated Appropriations Act of 2012, and remain
unmet. With respect to INL’s technical comments, OIG made minor revisions to the report
language based on those comments. OIG’s reply to the technical comments, which describes the
specific OIG action taken or not taken as a result of the comments, is contained in Appendix C.

        (U) OIG made four recommendations to INL, including recommendations to conduct an
immediate evaluation of CSSP for program effectiveness and sustainability, to include
determining costs that will be incurred by GIRoA, and to take action as necessary in response to
the evaluation results. OIG also recommended that the Department revise and reissue its
program management and evaluation guidance to ensure that programs such as CSSP are
effectively managed and sustainable.

       (U) INL concurred with one recommendation and partially concurred with three
recommendations. Based on INL’s response, OIG considers Recommendations 1, 5, and 6
resolved, pending further action, and Recommendation 2 unresolved. INL’s responses and
OIG’s replies to those responses are included after each recommendation.

      (U) The Bureau of Budget and Planning did not respond to the draft report, and therefore,
OIG considers Recommendations 3 and 4 unresolved.




                                                3

                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


                                             (U) Background
        (U) In 2006, INL established CSSP as the Afghan prisoner population grew from
approximately 600 prisoners in the early 2000s to roughly 16,000 in 2010. The CSSP mission is
to assist GIRoA in building a safe, secure, and humane prison system that meets international
standards and Afghan cultural requirements. To meet that mission, INL focuses on providing
GDPDC with training, mentoring, and professional assistance. INL has projected that CSSP will
continue through 2016, with several major CSSP initiatives scheduled to transfer to the Afghan
government between 2013 and 2015.

        (U) GDPDC has approximately 6,000 Afghan employees, who work at GDPDC
headquarters in Kabul and at 34 provincial prisons and 203 detention centers located throughout
Afghanistan. CSSP personnel primarily work in Kabul and in seven Afghan provinces at
regional training centers, provincial reconstruction teams, and the INL Regional Law
Enforcement Center. As of June 5, 2013, The Department had obligated $226 million and
expended about $208 million for CSSP contract task orders with PAE to provide training,
capacity building, and infrastructure support to the GDPDC. In addition to the $226 million
obligated for CSSP, INL contributes $5 million annually to the Law and Order Trust Fund for
Afghanistan 4 used specifically to pay GDPDC officers’ salaries.

(U) Program Management

        (U) The INL Afghanistan/Pakistan office (INL/AP) in Washington, DC, is responsible
for directing and managing programs that support the Afghanistan justice sector, to include
CSSP. The INL CSSP program manager is located in Kabul and reports to Embassy Kabul’s
INL section Deputy Director. The program manager supervises a deputy and a staff of eight
American and locally employed staff and is responsible for guiding, directing, developing, and
implementing the INL corrections program and coordinates with INL/Kabul and INL/AP to
conduct corrections strategic planning.

(U) CSSP Task Orders

        (U) Contractor support for CSSP is provided under the Department’s worldwide civilian
police advisor and logistics support services contract with PAE (Contract No.
SLMAQM04C0033). The first CSSP task order (SAQMPD06FA294) ran from March 2006 to
April 2010, and the second (SAQMMA10F1572) was awarded on May 2010. The second task
order was extended through December 31, 2013. As of June 5, 2013, the task orders were worth
about $270 million, approximately $226 million of which had been obligated, as shown in
Table 1.



4
 (U) The Law and Order Trust Fund for Afghanistan is a multilateral trust fund set up in 2002 as a mechanism for
coordinating contributions from the United Nations Development Program partners, as part of the international
community’s support to build the Afghan national police force.

                                                        4

                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



(U) Table 1: Task Order Funding (Amount in millions of U.S. dollars)
                                             Task Order Value           Obligated           Expended
SAQMPD06FA294 - March 7, 2006                       $103                    $87                 $84
SAQMMA10F1572 - May 6, 2010                         $167                   $140                $124
Total:                                              $270                   $226                $208
(U) Source: INL and the Department of State, Bureau of Administration, Office of Logistics Management, Office of
Acquisitions Management.
(U) Note: Numbers in this table may not add because of rounding.

        (U) The contracting officer for the PAE task order is located in Washington, DC, and is
responsible for establishing the task order terms and conditions, issuing the solicitations,
conducting contract negotiations, and executing contract modifications. The contracting
officer’s representative is located in Kabul and is responsible for reviewing contractor invoices,
monitoring the contractor's technical progress and the expenditures of resources relating to the
contract, and informing the contracting officer of any contractor schedule or performance issues.

(U) Certification Requirement

        (U) Because of sustainability concerns for U.S.-funded programs in Afghanistan, the
Consolidated Appropriations Act of 2012 mandated specific requirements on all INL programs
in Afghanistan, to include CSSP. The Act stated that before FY 2012 INL funds could be
obligated for Afghanistan-based assistance programs, the Secretary of State must certify to the
Appropriations Committees that the funds will be used to “design and support” programs in
accordance with the June 2011 USAID sustainability guidance. The “Administrator’s
Sustainability Guidance for USAID in Afghanistan” is designed to ensure that U.S. Government
resources are properly aligned with U.S. and Afghan national interests to ensure that its work
contributes to the following:

         •   (U) bringing stability to Afghanistan and confidence to the Afghan people,
         •   (U) assisting the Afghan people to build more capable, inclusive, and pluralistic
             governance and society, and
         •   (U) enabling sustainable economic growth and human development.

(U) The sustainability guidance also requires that the agency examine each individual assistance
program to ensure that the Afghans will have the capacity to sustain the impact of a program’s
work beyond 2014. Specifically, the guidance states that programs should meet the following
core principles:

         •   (U) Increases Afghan ownership and capacity – programs must increase Afghan
             ownership, Afghan capacity to manage and lead, and Afghan commitment to sustain.
             If those characteristics are not present in the programs, then the guidance requires that
             a “realistic plan” be developed for achieving those characteristics in the short to
             medium term.

                                                       5

                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


       •   (U) Contributes to stability and confidence – programs must increase the Afghan
           government’s capacity to deliver, equitably and accountably, critical social needs and
           promote economic conditions.
       •   (U) Is effective both programmatically and cost-wise – programs must be reviewed
           for both program effectiveness (is each program on track to achieve what was
           intended?), and for cost effectiveness (can we achieve similar results for less
           money?).

        (U) To implement the sustainability guidance, programs should undergo immediate and
ongoing program reviews to determine whether the program is meeting the core principles. In
addition, the agency should determine program costs for operations, maintenance, and
infrastructure and work with GIRoA to develop plans to ensure that those costs are prioritized
and that GIRoA can sustain the program. For the programs that do not align with the core
principles or for which there is insufficient commitment to fund, the agency should recommend
whether the programs should be modified, ended, or postponed.

        (U) The guidance further instructs that within 45 days, initial results of a program review
should be reported to agency headquarters and a quarterly reporting process should be initiated.
At the program level, the quarterly report should include analysis of the program’s progress
towards meeting its outcomes and intended impacts.

                                         (U) Objective
        (U) The audit objective was to evaluate whether INL was effectively managing CSSP and
to determine whether GIRoA could sustain the program’s results.




                                                 6

                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                                      (U) Audit Results

(U) Congressional Certification Requirements Were Not Fully Met
       (U) On November 28, 2012, the Deputy Secretary certified to Congress that FY 2012
INL funds would not be obligated unless INL programs met the requirements of the June 2011
“Administrator’s Sustainability Guidance for USAID in Afghanistan.” However, on March 13,
2013, INL obligated FY 2012 CSSP funds without fully meeting those requirements.
Specifically, INL had not

       •   (U) conducted a program review to determine CSSP program and cost effectiveness,
       •   (U) estimated the costs and activities necessary for the Afghans to sustain the
           corrections program, or
       •   (U) developed a quarterly assessment and reporting process for measuring CSSP
           success in achieving its program outcomes and GIRoA progress on meetings its
           commitments.

         (U) This occurred because the Department and INL had not developed clear,
comprehensive, and mandatory guidance for managing and evaluating INL programs for
effectiveness or sustainability. As a result, INL has no basis for determining whether CSSP is an
effective program with a positive return on its $226 million investment; whether the program
should be revised, reduced, or canceled; or whether GIROA will have the capacity to sustain the
corrections program once international contributions are reduced. At current GIRoA funding
levels, the Afghan corrections program is not sustainable without continued international
support.

(U) INL Program Certification

        (U) On November 28, 2012, the Deputy Secretary certified to Congress that FY 2012
INL funds would not be obligated unless programs met the requirements of the June 2011
“Administrator’s Sustainability Guidance for USAID in Afghanistan.” The certification states
that the INL Afghanistan programs will be in compliance with the principles of the USAID
guidance. Specific to the corrections program, a Memorandum of Justification accompanying
the certification states that to achieve sustainability, INL has implemented a train-the-trainer
program to ensure that the Afghans can conduct corrections officer training and a facilities
maintenance training program to ensure that the detention facilities and other properties will be
adequately maintained.

       (U) Although the Department certified that the INL programs would meet the USAID
sustainability guidance before funds were obligated, INL began obligating FY 2012 CSSP funds
on March 13, 2013, without fully meeting that guidance. Specifically, INL had not




                                                 7

                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


        •    (U) conducted a program review to determine CSSP program and cost effectiveness,
        •    (U) estimated the costs and activities necessary for the Afghans to sustain the
             corrections program, or
        •    (U) developed a quarterly assessment and reporting process for measuring CSSP
             success in achieving its program outcomes and GIRoA progress on meetings its
             commitments.

(U) Program Reviews Were Not Conducted

        (U) Although CSSP was initiated in 2006, INL had not conducted periodic reviews to
determine program and cost effectiveness, as of July 2013. INL had also not developed a CSSP
performance management plan until October 2012, 5 which is crucial for measuring program and
cost effectiveness. INL provided OIG with a Mission Kabul Portfolio Review for “Corrections
System Development,” conducted in early 2012, which includes, but is not limited to, CSSP.
However, the portfolio review did not fulfill the requirements of the USAID sustainability
guidance, which calls for immediate and on-going program reviews to determine whether the
program is meeting the core principles of the guidance. The portfolio review also did not include
an evaluation of CSSP effectiveness, either programmatically or cost-wise, one of the core
principles in the sustainability guidance.

        (U) To facilitate CSSP program and cost effectiveness reviews, INL should have
developed a performance management plan when CSSP was initiated. According to the
Department’s Managing for Results: A Program and Project Management Guidebook, 6 a
management plan can be critical to program success because it focuses efforts towards achieving
significant impacts in priority areas, provides a structure that allows program managers to
respond to different challenges, establishes a framework for monitoring program effectiveness,
and clearly communicates program expectations to stakeholders.

         (U) In October 2012, INL issued a CSSP Performance Management Plan, which includes
elements such as a program goal, objectives, inputs, outputs, outcome measures, and a
methodology for evaluating performance. OIG acknowledges that issuance of the plan is a key
first step to improve program monitoring; however, OIG’s review of the plan indicates that none
of the plan elements fully align with definitions in the Department’s Performance Management
Guidebook. 7 For example, of the six CSSP objectives listed in the plan, none are intermediate
outcomes that are specific or that can be measured, as defined in the Performance Management
Guidebook. Specifically, Objective Number 1 states that the program should “[p]rovide

5
  (U) INL began developing the CSSP performance management plan in 2011 with the first draft dated October
2011; the final performance management plan was approved and issued in October 2012.
6
  (U) The Managing for Results: A Program and Project Management Guidebook is a “reference tool to point
Department program or project managers to applicable requirements, existing methodologies, best practices within
State, trainings and educational offerings, and sample program management tools and resources available to help
effectively and efficiently manage Department programs and projects.”
7
  (U) The Performance Management Guidebook, Dec. 2011, is a guide to build capacity within the Department to
plan for and conduct rigorous performance management efforts to collect data and to put that data to use in
decision-making through analysis and results reporting.

                                                        8

                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


technical training and mentoring of corrections staff and prison leadership,” which does not
define an intermediate outcome or include measurable factors. Instead, the objective simply
describes an activity that the program should undertake as part of its mission. OIG also found
weaknesses in CSSP’s definition of its goal, inputs, outputs, and outcomes. In addition, the plan
does not establish a methodology to link CSSP outcomes to the attainment of the CSSP goal.
Further, the CSSP contractor is responsible for collecting and reporting much of the performance
data, and there is no requirement for government or third-party validation of that data. Having
the contractor responsible for collecting and reporting the performance data creates a conflict of
interest since the contractor is responsible for providing the majority of the services that will be
evaluated. Any of these factors taken separately or collectively could risk the viability of any
future program and cost effectiveness reviews.

(U) Sustainment Costs and Activities Were Not Identified

        (U) Although a Memorandum of Justification accompanying the certification to Congress
and the Mission Kabul Portfolio Review identified sustainment-related activities that have been
implemented for the Afghan corrections system, INL had not identified the costs or plans for
GIRoA to sustain CSSP. The USAID sustainability guidance states that the agency should
determine program costs for operations, maintenance, and infrastructure and should work with
GIRoA to ensure that the program is sustainable. In the Memorandum of Justification, INL
identified activities that would support sustaining the corrections program, such as train-the-
trainer and facilities maintenance training. In addition, the portfolio review states, “INL partners
with the Afghan Government on all aspects of the corrections system development effort, with
an eye towards sustainability and Afghanization. State partnership trainings focus on building
the capacity of Afghan corrections officers. Participants learn and reinforce professional skills
that can be sustained without foreign support.” However, neither document identifies the costs
for GIRoA to sustain the corrections program, as the sustainability guidance requires.

        (U) At current GIRoA funding levels, the Afghan corrections program is not sustainable
without continued international support. GDPDC’s annual average budget is about $32 million,
and of that amount, GIRoA funds about $14 million (44 percent). To assist in meeting GDPDC
expenses, GIRoA relies on annual funding from the Law and Order Trust Fund for Afghanistan
of about $5 million and funding from CSSP for activities such training, capacity building, and
infrastructure programs. Despite the international support, GDPDC still has unpaid utility and
food bills of $8.4 million dating back to 2007. To offset part of its expenses, GDPDC, with
CSSP assistance, has initiated a number of prison industries programs. Specifically, prison
industries programs have been initiated in several prisons, including the Balkh Provincial Prison,
the Paktya Provincial Prison, the Herat Provincial Prison, and the Pol-i-Charkhi Central Prison.
OIG observed a tailoring program at the Kandahar Provincial Prison; rug weaving, shoe making,
welding, and tailoring programs at the Pol-i-Charkhi Central Prison; and rug weaving, tailoring,
and tin-smithing programs at the Herat Provincial Prison. The Herat prison commander told OIG
that the industries program was one of the CSSP achievements at the prison.

       (U) Although the prison industries programs could provide some revenue for prison
operations, Afghan laws and corrections regulations limit the amount of program revenues that

                                                 9

                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


GDPDC can retain and use. For example, according to the Afghan corrections regulations, 8
prisoners working in prisons shall be paid 60 percent of what their counterparts at
nongovernmental organizations are paid. This regulation reduces the revenue the prison would
generate after factoring in the cost of materials used in making the products. In addition, there
are also local laws 9 that allow the Afghan Ministry of Finance to get 75 percent of the annual net
profit from the industries programs. Therefore, 10 if a prison industries program product sold for
$100 and the profit after the costs of the materials and paying the prisoners was $40, the Afghan
Ministry of Finance would get $30 and the GDPDC would get $10. Moreover, many of the
Afghanistan prisons are located in residential areas with insufficient land to support industries
programs such as agriculture and husbandry.

(U) Evaluation and Reporting Process Was Not Developed

         (U) To meet the USAID sustainability guidance requirements, INL needed to conduct an
initial review of CSSP and establish a quarterly review and reporting process for measuring
CSSP success in achieving its program outcomes and GIRoA progress on meetings its
commitments. However, INL had not conducted an initial review or developed a process for
quarterly assessments and reporting prior to its certification to Congress on November 28, 2012.
Further, the October 2012 CSSP performance management plan that INL developed included a
requirement for quarterly reviews of the program; however, INL still had not completed the
initial review of CSSPs progress in meeting its outcomes and intended impacts prior to
obligating FY 2012 funds on March 13, 2013. In addition, the October 2012 CSSP performance
management plan does not include a requirement for evaluating GIRoA’s progress in meeting its
commitments to CSSP.

        (U) Prior to the quarterly review and reporting requirement in the October 2012
performance management plan, the CSSP contractor was collecting program data and provided it
to INL. However, INL did not use the data to measure program effectiveness, rather the data was
used to provide INL with contract activities, successes, and points of concern. Although INL
acknowledged that it had “voluminous” contractor provided data that could be evaluated, INL
had never evaluated the data to determine CSSP progress, results, or effectiveness.

(U) Clear, Comprehensive, and Mandatory Guidance Was Not Established

        (U) Guidance issued by the Department and INL for managing and evaluating programs
for effectiveness and sustainability was not clear, comprehensive, or mandatory. The 2010
Quadrennial Diplomacy and Development Review called for changes to the Department with an



8
  (U) Prisons and Detention Center’s Regulation for Management of Affairs, Article 24.
9
  (U) Official Gazette No. 743, published May 21, 1991, State-Owned Enterprises Law.
10
   (U) OIG used a hypothetical example because of the lack of reliable prison industries program revenue data.
GDPDC does not have the infrastructure to allow the provincial prisons to report financial data electronically.
Therefore, prison industries program revenue reports are hand delivered by GDPDC staff that travel to Kabul on a
sporadic and unreliable basis.

                                                       10

                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


emphasis, among others, on managing for results. In December 2011, the Department 11 began
issuing new and revised program evaluation and management policy and guidance in an effort to
improve program performance and results. In 2012, INL issued the Guide to Project Design, the
Guide to Results Framework, and the Guide to Developing a Performance Measurement Plan on
its Web site.

        (U) Program and Performance Management Guidance

        (U) The revised program evaluation policy is contained in the Foreign Affairs Manual
(FAM); however, the policy does not establish a rigorous program evaluation process and does
not require consistent application across Department bureaus. The FAM 12 requires that all
“large” programs, projects, and activities be evaluated at least once in their lifetime or every
5 years. However, the policy gives considerable leeway to the bureaus on the definition of large,
stating that “keeping these guidelines in mind, bureaus have the flexibility to determine what
constitutes a large program or activity in the context of their portfolio.” This lack of specific
thresholds for program evaluation does not provide assurance that the policy will be applied
consistently across the Department or, in fact, whether shorter-term projects will be evaluated,
regardless of their size or risk. The FAM also does not contain specific guidance for reporting
the program evaluation results. With respect to CSSP, INL’s evaluation plans for FYs 2012–
2014 did not specifically include CSSP as one of the programs selected for evaluation.
Therefore, by the end of FY 2014, CSSP will have been operating for 8 years without a formal
program evaluation. In addition to the FAM policy, for INL, there are at least five supplemental
guides available (two issued by the Department and three by INL). Although the guidance
contains information relevant to program management and performance evaluation, their use is
not mandatory.

        (U) Performance Management Guidebook. The Performance Management
Guidebook 13 states that the goal of performance management is to use performance and
evaluation results to make programming and policy decisions as necessary, to effectively and
efficiently reach program goals and objectives. The guidebook defines five phases to
performance management: 1) Strategic Planning, 2) Operational Planning, 3) Data Collection &
Performance Measurement, 4) Performance Analysis & Review, and 5) Performance
Improvement. The guidebook provides information on the activities that should take place
during each of the stages. Although the guidebook provides a baseline for ensuring that program
managers have the data needed to make informed program decisions, its use is not mandatory.

      (U) Program and Project Management Guidebook. The Program and Project
Management Guidebook is intended to supplement existing Department project management
methodologies. According to the guidebook, those existing project management methodologies

11
   (U) The Bureau of Budget and Planning, Office of Performance and Planning, works in coordination with the
Office of Foreign Assistance Resources to oversee the Department’s annual performance planning and reporting
processes, systems, and products, as well as the implementation of the Department’s evaluation policy. It also
establishes the policies that ensure Department plans, budget requests, and appropriations meet requirements.
12
   (U) 18 FAM 300, “Program Evaluation Policy,” effective Apr. 6, 2012.
13
   (U) Performance Management Guidebook, Dec. 1, 2011.

                                                       11

                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


     are contained in the FAM and FAH, which contain “recommended” methodologies. It further
     states that the Department “has no mandated project management methodology required to be
     used and employed by program managers.”

            (U) INL Program Management Guides. In 2012, INL posted three undated program
     guides on its Web site—Guide to Project Design, Guide to Results Framework, and Guide to
     Developing a Performance Measurement Plan. The guides provide INL program and project
     managers with steps to ensure that program and projects are adequately designed and that those
     designs will facilitate the collection of data necessary to measure progress and impact. Although
     INL’s Project Design Guide states “in keeping with the Department’s strategic and budgeting
     processes,” the INL guides primarily provide best practices for use in managing INL programs
     and projects, and their use is not mandatory.

             (U) To ensure that INL programs and projects such as CSSP are effectively managed,
     Department and INL program and project management guidance should be revised with respect
     to planning, evaluation, and reporting requirements. All projects and programs should be
     required to prepare a comprehensive performance management plan that includes an overall
     strategy, goals, objectives, schedules, timelines, risks, and a desired end state. Annual
     performance evaluations should be required for all high-risk programs and projects as well as
     those that meet a designated and consistent threshold. In addition, there should be a process
     established for reporting the results of those evaluations so that the Department and INL can
     make informed decisions concerning program or project viability. Lastly, use of the
     supplemental guides should be mandatory to ensure consistency across programs and bureaus.
[Redacted] (b) (5)




[Redacted] (b) (5)


                                                    12

                                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


(U) Program Effectiveness and Sustainability Requirements Were Not Known

        (U) As a result of the Department not having developed clear, comprehensive, and
mandatory guidance, INL has no basis for determining whether CSSP is an effective program
with a positive return on its $226 million investment or whether the program should be revised,
reduced, or canceled. Had a performance management plan been developed and periodic
program effectiveness reviews been conducted, INL may have been prepared to meet the USAID
sustainability guidance and therefore the Consolidated Appropriations Act of 2012 requirements.

        (U) Further, if the Department had developed and issued guidance for evaluating
sustainability of programs, INL would have been required to determine CSSP sustainability.
Table 2 shows recent annual shortfall in the GDPDC budget. If GIRoA is unable to sustain the
corrections program when international support is likely reduced post 2014, the Department risks
waste of about $226 million in CSSP program costs that were obligated through May 2013 and
any other funds obligated thereafter. At current GIRoA funding levels, the Afghan corrections
program is not sustainable without continued international support.

(U) Table 2: Annual GDPDC Budget Shortfall (Amount in millions of U.S. dollars)
 Fiscal     GDPDC Budget        GDPDC’s Budget            Funds From
                                                                              Shortfall
 Year         Request         Received from GIRoA        Other Sources
  2012             $60                  $17                   $14               $29
  2013             $109                 $27                   $18               $64
(U) Source: PAE.

(U) Management Response to the Finding

        (U) In its August 20, 2013, response to the draft report (see Appendix B), INL raised
concerns on the report finding and OIG’s use of certain terminology. Specifically, INL
disagreed with the following statement: “If [GDPDC] is unable to sustain the corrections
program when international support is likely reduced post 2014, the Department risks waste of
about $226 million in CSSP program costs.” INL considered this to be an “overstatement.” INL
stated that with the support of CSSP the “GDPDC has developed the capacity to administer its
own training program, with 22 of 24 corrections courses currently taught by GDPDC trainers”
and that CSSP had improved GDPDC’s ability to manage its provincial prisons. INL further
stated that the gains represent a return already achieved on the investment and reflects enduring
capacity improvements of Afghan personnel that will remain even as international support
decreases.

         (U) INL also disagreed that CSSP did not meet the requirements of the Congressional
certification and requested OIG amend the report to reflect its compliance. INL stated that it
“believes that CSSP is consistent with the core principles” of the USAID sustainability guidance.
INL provided an attachment to its response (Attachment 1) that included three examples of how
CSSP is consistent with those core principles. INL cited the increase in GDPDC’s capacity to
train its corrections personnel and the exclusion of GDPDC prisons from the 2011 and 2012


                                               13

                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


United Nations Assistance Mission – Afghanistan list of Afghan detention facilities with credible
allegations of systemic torture as two of those examples. The third example addressed CSSP
cost and program effectiveness. Specifically, INL stated that it assessed the program in March
2011 and issued a draft report that identified areas for improvement, as well as, areas in which
the program was effective to include training and mentoring. INL further stated that it revised
CSSP reporting requirements in October 2011 to better measure programmatic performance,
including data reporting requirements, and that INL verified program effectiveness through
analysis of CSSP monthly and quarterly reports, site visits, and review of CSSP narrative reports.

        (U) As Attachment 3 to its response, INL provided technical comments to the draft report
in which it expressed concerns regarding clarity of terminology used by OIG included in the
report, as well as, the distinction between the certification to Congress, signed by the Deputy
Secretary, and the accompanying memorandum of justification. INL also noted that it is
“strongly committed to implementing robust performance management practices,” stating that it
began implementing the CSSP performance management plan in October 2011, two months
prior to the release of the Department’s Performance Management Guidebook. INL further
stated that as reported by OIG, there is a misalignment between CSSP and INL procedures, and
Department guidance, and it will work to align those terms, policies, and procedures.

(U) OIG Reply

        (U) OIG maintains the position that if GIRoA is unable to sustain the corrections system
the Department’s $226 million investment in CSSP is at risk. At current GIRoA funding levels,
and without international support, the number of courses the GDPDC trainers can teach and
improvements in prison management become less relevant if the GDPDC cannot retain its staff.
According to the GDPDC Director, there is a 33 percent attrition rate among the officers, many
of whom cited salary concerns as the primary reason for leaving the GDPDC. The Director also
stated that the officers’ counterparts in the national police receive a higher salary and that
additional staff will likely leave to seek jobs with more reliable salaries if international funding
for the corrections system is reduced and if GIRoA is unable to sustain the GDPDC budget.

        (U) OIG did not revise the report to reflect INL’s assertion that CSSP met the
requirements of the Congressional certification. OIG agrees that some aspects of CSSP align
with core principles in the USAID sustainability guidance; however, not all core principles were
met prior to obligating FY 2012 CSSP funding as required by the Consolidated Appropriations
Act of 2012, and remain unmet. OIG specifically disagrees with INL’s statement that it has met
the cost and program effectiveness principle as a result of its March 2011 assessment. During
the audit, INL provided only contractor prepared documents that highlighted the activities of the
contractor as well as the Mission Kabul Portfolio Review, both of which OIG reported did not
meet the cost or program effectiveness core principle. Further, INL acknowledged during the
audit that although it had voluminous data provided by the contractor, it had never evaluated the
data to determine CSSP progress, results, or effectiveness. INL’s statement that it revised CSSP
reporting requirements in October 2011 to “better measure programmatic performance,” refers to
the contractor’s reporting activities, the results of which were not used to measure CSSP
effectiveness.

                                                 14

                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



       (U) With respect to INL’s technical comments, OIG made minor revisions to the report
based on those comments. OIG’s reply to the technical comments is contained in Appendix C.

       (U) Recommendation 1. OIG recommends that the Bureau of International Narcotics
       and Law Enforcement Affairs conduct an immediate evaluation of Corrections System
       Support Program on-going and planned projects in Afghanistan and determine whether
       the projects are viable and take the necessary action to address the evaluation results, as
       required by the “Administrator’s Sustainability Guidance for USAID in Afghanistan” and
       the Consolidated Appropriations Act of 2012.

       (U) Management Response: INL concurred, stating that it would conduct an
       independent evaluation of CSSP and implement processes for quarterly systematic INL-
       drafted program analyses.

       (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and accepts documentation showing the evaluation results
       and the actions INL has taken to address those results.

       (U) Recommendation 2. OIG recommends that the Bureau of International Narcotics
       and Law Enforcement Affairs determine the costs, then develop and implement a
       sustainability strategy in partnership with the Government of the Islamic Republic of
       Afghanistan to ensure the sustainability of the Afghan General Directorate of Prisons and
       Detention Centers and the Afghan corrections system once international funding is
       removed, as required by the “Administrator’s Sustainability Guidance for USAID in
       Afghanistan” and the Consolidated Appropriations Act of 2012.

       (U) Management Response: INL partially concurred, stating that its objective is “to
       build a sustainable capacity within the Afghan government to administer correctional
       facilities safely, securely, and humanely.” INL stated that it is working with civil society
       partners to engage in long-term planning and actively working to have the Afghan
       government assume more responsibility for many of its programs.

       (U) OIG Reply: OIG considers the recommendation unresolved because INL did not
       address the need to determine the costs to operate the GDPDC and to build a
       sustainability strategy with respect to those costs. This recommendation can be
       considered resolved when INL concurs with the recommendation and can be closed when
       OIG reviews and accepts documentation showing that INL has determined the costs for
       GDPDC to sustain the corrections system, and develops and implements a sustainment
       strategy in partnership with GIRoA.

       (U) Recommendation 3. OIG recommends that the Bureau of Budget and Planning, in
       coordination with the Director of Foreign Assistance, revise and reissue 18 FAM 300 to



                                                15

                             SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


       •   (U) require mandatory use of supplemental program management guidance
           for all Department programs and projects;
       •   (U) require that all programs and projects prepare comprehensive
           management plans that include an overall strategy, goals, objectives,
           schedules, timelines, risks, and desired end state;
       •   (U) establish a threshold for programs and projects across all Department
           bureaus and offices for performance evaluation purposes;
       •   (U) require mandatory annual performance evaluations for all programs and
           projects that are high-risk or meet the designated threshold;
       •   (U) include guidance for evaluating sustainability of programs; and
       •   (U) require bureaus provide the evaluations to the Office of Performance and
           Planning for review.

(U) Management Response: The Bureau of Budget and Planning did not provide a
response to the draft report.

(U) INL provided an unsolicited response, suggesting that the recommendation be
redirected to the Director of Foreign Assistance. INL further stated that the
recommendation would “impact all foreign assistance programs and, if not timed
correctly, could provide unreliable information for decision makers.”

(U) OIG Reply: OIG considers the recommendation unresolved because the Bureau of
Budget and Planning did not provide a response. OIG redirected the recommendation to
include the Director of Foreign Assistance as a coordinating office for implementation in
accordance with INL’s unsolicited response.

(U) Recommendation 4. OIG recommends that the Bureau of Budget and Planning, in
coordination with the Director of Foreign Assistance, establish a process for Department
bureaus to provide performance evaluations of the programs and projects and review the
evaluations to ensure that the programs and projects continue to be viable. Evaluations
that do not reflect adequate performance should be provided to appropriate officials to
determine whether to terminate, modify, or continue the program or project.

(U) Management Response: The Bureau of Budget and Planning did not provide a
response to the draft report.

(U) INL provided an unsolicited response, suggesting that the recommendation be
redirected to the Director of Foreign Assistance. INL further stated that the
recommendation would “impact all foreign assistance programs and, if not timed
correctly, could provide unreliable information for decision makers.”

(U) OIG Reply: OIG considers the recommendation unresolved because the Bureau of
Budget and Planning did not provide a response. OIG redirected the recommendation to



                                        16

                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


include the Director of Foreign Assistance as a coordinating office for implementation in
accordance with INL’s unsolicited response.

(U) Recommendation 5. OIG recommends that the Bureau of International Narcotics
and Law Enforcement Affairs revise its program and project management guidance to
reflect and align with the recommended changes to Department guidance, including
requiring all INL programs and projects to follow the guidance and ensure performance
evaluations are conducted and reviewed for viability.

(U) Management Response: INL partially concurred, stating that there was
misalignment between “some CSSP and Bureau procedures and Department guidance”
and that INL would work to align terms, policies, and procedures. INL further stated that
it is “aggressively pursuing the intent of the Department’s current evaluation policy” but
raised concerns over Recommendations 3 and 4 and the impact those recommendations
would have on INL’s ability to comply with Recommendation 5.

(U) OIG Reply: OIG considers the recommendation resolved. Although INL only
partially concurred, the actions described met the full intent of the recommendation,
which was to ensure that Bureau and Department program and project management
guidance are aligned. This recommendation can be closed when OIG reviews and
accepts documentation showing that INL has issued updated program and project
management guidance that aligns with the Department’s guidance once the Department’s
guidance is revised in accordance with Recommendations 3 and 4.

(U) Recommendation 6. OIG recommends that the Bureau of International Narcotics
and Law Enforcement Affairs revise and update the Performance Management Plan for
the Corrections System Support Program in Afghanistan. The revisions should

       •   (U) align the Corrections System Support Program performance management
           plan with the definitions in Department program management guidance,
           including a program goal that uses specific terminology, objectives that are
           specific and measureable, inputs that are resources used to produce outputs,
           outputs that are products and services delivered by the program, and outcomes
           that are declarative statements of long-term results at a fully successful level;
       •   (U) establish a methodology for linking Corrections System Support Program
           outcomes to achieving the program goal;
       •   (U) require government (or other third-party) validation of contractor
           collected data;
       •   (U) establish quarterly assessment and reporting process of the Government of
           the Islamic Republic of Afghanistan’s progress in meeting its CSSP
           commitments; and
       •   (U) include suspense dates and distribution process for reporting Corrections
           System Support Program data.



                                        17

                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


(U) Management Response: INL partially concurred, stating that it believed that some
of the requested changes “are already in place or are not appropriate or viable” for the
CSSP performance management plan. INL agreed to align terms and amend the CSSP
performance management plan to strengthen the quarterly review process and include
suspense dates and a distribution process for reporting CSSP data. In addition, INL
requested further clarification on the recommendation’s implication that CSSP would
“mandate that the GDPDC meet certain programmatic commitments,” which INL stated
would be “difficult to sustain.”

(U) OIG Reply: OIG considers the recommendation resolved. With regard to the
requested clarification, the USAID sustainability guidance requires quarterly assessments
of GIRoA’s progress in its ability to sustain the corrections system; the recommendation
is not intended to “mandate that the GDPDC meet certain programmatic commitments,”
as INL stated. Although INL only partially concurred, its response meets the intent of the
recommendation, which was for INL to revise and update the CSSP performance
management plan in accordance with the findings and other recommendations in the
report. The recommendation can be closed when OIG reviews and accepts
documentation showing that INL has updated the CSSP performance management plan.




                                        18

                      SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


                                                                                              (U) Appendix A

                                    (U) Scope and Methodology

        (U) The Department of State (Department), Office of Inspector General (OIG), conducted
this audit to evaluate whether the Bureau of International Narcotics and Law Enforcement
Affairs (INL) was effectively managing the Corrections System Support Program (CSSP) and to
determine whether the Government of the Islamic Republic of Afghanistan (GIRoA) could
sustain the program’s results. OIG conducted this audit from January 2012 to July 2013 in
Afghanistan and in the Washington, DC, metropolitan area. This performance audit was
conducted in accordance with generally accepted government auditing standards. These
standards require that OIG plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for the findings and conclusions based on the audit objectives. OIG
believes that the evidence obtained provides a reasonable basis for the findings and conclusions
based on the audit objectives.

        (U) To determine whether INL was effectively managing CSSP and ensuring the results
could be sustained by GIRoA, OIG reviewed the CSSP task order statement of work, training
records, and other supporting documentation obtained from INL and PAE, the CSSP contractor.
In addition, OIG also reviewed Department program management guidance, including the
Foreign Affairs Manual, 1 the Performance Management Guidebook, 2 and the Managing for
Results: A Program and Project Management Guidebook. 3 OIG also reviewed INL-specific
program management guidance, including its Project Design Guide, Guide to Results
Frameworks, and Guide to Developing a Performance Measurement Plan. Further, OIG
analyzed the October 2012 performance management plan developed by INL for CSSP.

         (U) OIG also reviewed guidance and documentation to ensure that INL complied with
Federal regulations, including the Consolidated Appropriations Act of 2012, which requires the
Secretary of State to certify to Congress that the funds will be used to “design and support”
programs in accordance with United States Agency for International Development (USAID)
sustainability guidance 4 before FY 2012 INL funds could be obligated for Afghanistan-based
assistance programs. OIG reviewed USAID sustainability guidance, as well as the Deputy
Secretary’s certification to Congress regarding obligation of FY 2012 INL funds, and
accompanying Memorandum of Justification. In addition, OIG also reviewed Mission Kabul
Portfolio Review for “Corrections System Development,” that INL provided, which includes, but
is not limited to, CSSP.

1
  (SBU) 18 FAM 300, “Program Evaluation Policy,” and 18 FAM 055, “Key Priorities for Development
Diplomacy.”
2
  (U) Performance Management Guidebook, Dec. 1, 2011.
3
  (U) The Managing for Results: Program and Project Management Guidebook is a “reference tool to point
Department program or project managers to applicable requirements, existing methodologies, best practices within
State, trainings and educational offerings, and sample program management tools and resources available to help
effectively and efficiently manage Department programs and projects.”
4
  (U) “Administrator’s Sustainability Guidance for USAID in Afghanistan,” June 2011.

                                                       19

                                  SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



        (U) OIG also interviewed officials from INL, PAE, and GIRoA. GIRoA officials OIG
interviewed included the General Directorate of Prisons and Detention Centers (GDPDC)
Director and prison commanders. While conducting fieldwork in Afghanistan, OIG made visits
to eight sites throughout Afghanistan: GDPDC, Kabul Female Prison/Detention Center, Kabul
Detention Center, Counter Narcotics Justice Center, Pol-i-Charkhi Central Prison, Kandahar
Provincial Prison, Gardez Prison, and Herat Prison.

(U) Work Related to Internal Controls

        (U) OIG performed steps to assess the adequacy of internal controls related to
management of CSSP. OIG reviewed INL obligations to determine whether it was meeting the
requirements in the Consolidated Appropriations Act of 2012. Deficiencies identified regarding
obligations of funds without meeting the appropriations requirements can be found in the Audit
Results section of the report.

(U) Use of Computer-Processed Data

       (U) During the audit, OIG did not use computer-processed data.




                                              20

                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                                                                            (U) Appendix B

(U) Bureau of International Narcotics and Law Enforcement Affairs Response


                                                               United States Department of State

                                                               Washington, D.C. 20520


         UNCLASSIFIED                                         August 20, 2013

         MEMORANDUM FOR OIGIMERO/AUD DEPUTY ASSISTANT
         INSPECTOR GENERAL CAROL N. GORMAN

         FROM:              INL - James A. Walsh, Executive     DirectoCJ~
         SUBJECT:           INL Responses to the Draft Report, "Audit of Bureau of
                            International Narcotics and Law Enforcement Affairs
                            Corrections System Support Program (CSSP) in Afghanistan"
                            (AliD-MER0-13-:XX, August 2013)

         The Bureau oflnternational Narcotics and Law Enforcement Affairs (INL)
         welcomes the opportunity to comment on this draft OIG report and offers
         additional information and clarification for your consideration.

         INL agrees with many of the draft report's recommendation, including conducting
         an evaluation of the Corrections System Support Program (CSSP). INL will also
         take immediate steps to further strengthen INL's oversight ofCSSP by including
         enhanced validation of reporting provided quarterly by the CSSP contractor in
         Afghanistan.

         However, INL has identified a number of concerns and respectfully requests that
         the OIG provide clarifications with respect to these concerns when it publishes the
         final report. Detailed responses to the recommendations included in the OIG's
         draft report are provided at the conclusion of this letter. (Technical corrections and
         comments are provided in Attachment 3.)

         First, INL requests that the OIG reconsider its assessment that "If [the Afghan
         government's] General Directorate ofPrisons and Detention Centers (GDPDC) is
         unable to sustain the corrections program when international support is likely
         reduced post 2014, the Department risks waste of about $226 million in CSSP
         program costs ..."

         INL believes this is an overstatement. As noted in the OIG report, $226 million
         represents the totality ofiNL's investment in CSSP since the program was
         established 2006. At that time, the GDPDC struggled to effectively manage fewer
         than 10,000 prisoners, was unable to exercise full control over several provincial


                                          UNCLASSIFIED




                                                   21

                             SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                                  UNCLASSIFIED
                                          -2-

prisons, could not respond effectively and humanely to serious incidents such as
riots or hostage crises, and did not have an organized basic training program for its
corrections personnel.

With CSSP's support, the GDPDC has developed the capacity to administer its
own training program, with 22 of 24 corrections courses currently taught by
GDPDC trainers; safeguard prisoners from mistreatment and abuse; manage a
population of over 28,000 prisoners and detainees, including nearly 7,000 National
Security Threat (NST) inmates, despite significant overcrowding and often
substandard infrastructure; and effectively quell critical incidents such as riots and
hostage takings. These gains represent a substantial return already achieved on our
investment; moreover, this progress reflects enduring improvements in the capacity
of Afghan personnel who will remain even as international support decreases.
(Further information regarding CSSP's successes, sustainability, and oversight is
included in Attachment 2.)

Second, INL requests that the OIG amend the report to reflect INL' s compliance
with the Certification requirements of the Department of State, Foreign Operations,
and Related Programs Appropriations Act, 2012. INL believes that CSSP is
consistent with the core principles of the USAID Administrator's Sustainability
Guidance dated June 2011, which called for programs to develop Afghan
ownership and capacity, contribute to Afghan stability and confidence, and exhibit
cost effectiveness and program effectiveness. (Additional information regarding
INL's compliance with the Certification requirements is included in Attachment 1.)

Third, lNL notes that a reader of the report unfamiliar with the distinctions
between statutory requirements, Department regulations, Bureau guidance, and
best practices, not all of which are mandatory, might conflate them with the
Certification requirement if the text of the draft does not observe those distinctions.
As currently drafted, the report addresses compliance not only with the statutory
Certification requirement, but also with the Foreign Affairs Manual, the
Performance Management Guidebook, INL's Guide to Project Design, INL's
Guide to Results Framework, and INL's Guide to Developing a Performance
Measurement Plan. These additional criteria are not directly relevant to the
requirements of the Certification.

In the interest of clarity, INL respectfully requests that the report be revised to
show the source of any unmet requirements identified by the OIG, indicating
where it is associated with the Certification and where it is not. Additionally, the


                                  UNCLASSIFIED




                                           22

                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                                 UNCLASSIFIED
                                     -3-

distinction between the Certification, as signed by the Deputy Secretary on
November 23, 2012, and the accompanying Memorandum ofJustification should
be clarified.

Finally, INL notes that the Bureau is strongly committed to implementing robust
performance management practices, and in some cases our efforts precede the
Department's guidance. For example, INL began implementing the CSSP
Performance Manage~ent Plan (PMP) in October 2011, two months before the
Department released the "Performance Management Guidebook." The result, as
reported by the OIG, is misalignment between some CSSP and Bureau procedures
and Department guidance. In these cases, INL will work to align its terms,
policies, and procedures in accordance with the more recently promulgated
Department guidance.

Above all, INL believes in the sustainability ofCSSP's legacy in Afghanistan.
CSSP, from its inception, has worked to build Afghanistan's capacity to effectively
manage its own correctional system in a cost-effective manner consistent with
international standards and Afghan law. CSSP activities, such as specialized
mentoring for GDPDC leadership, support the institutional capacity to maintain
these changes even as international support decreases post-2014. The program is a
central component of the U.S. and international strategy to bring stability to
Afghanistan and confidence to the Afghan people in their government.

INL is hopeful that the aforementioned corrections and additions will be
incorporated into the final report. Additionally, INL offers the following responses
to the current recommendations contained in the July 2013 draft report.

INL Responses to the OIG's Draft Recommendations ( as of August 2013)

Recommendation 1: OIG recommends that INL conduct an immediate evaluation
ofCSSP's on-going and planned projects in Afghanistan to determine whether the
projects are viable and take the necessary action to address the evaluation results.

INL Response (August 2013): INL agrees with this recommendation and will
develop a statement of work to conduct an independent evaluation ofCSSP. INL
also notes that the Bureau is conducting an assessment of Afghanistan's
corrections system in September 2013, which will inform future INL programming
and lay the groundwork for this evaluation that will determine the state of the
Afghan government's correctional capacity based on INLand CSSP assistance.


                                 UNCLASSIFIED




                                         23

                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                                 UNCLASSIFIED
                                         -4-

Furthermore, INL will immediately implement improved processes for systematic,
INL-drafted programs analyses on at least a quarterly basis.

Recommendation 2: OIG recommends that INL determine the costs, then
develop and implement a sustainability strategy in partnership with the
Government of the Islamic Republic of Afghanistan to ensure the sustainability of
the Afghan GDPDC and CSSP once international funding is removed, as required
by the "Administrator's Sustainability Guidance for USAID in Afghanistan" and
the Consolidated Appropriations Act of2012.

INL Response (August 2013): INL partially agrees, but wishes to clarify that
INL's objective is not to sustain CSSP, but to build a sustainable capacity within
the Afghan government to administer correctional facilities safely, securely, and
humanely. As such, INL coordinates extensively with the Afghan government,
including by negotiating a Letter of Agreement on an annual basis, and engages in
an ongoing review process to ensure program goals are aligned and that
sustainability is addressed. INL has engaged in detailed transition planning and
has either transitioned or is in the process oftransitioning major lines of effort to
the Afghan government. For example, CSSP will transfer leadership of all
corrections training courses in December 2013 and transition classification and
case management activities to GDPDC in 2014. Additionally, as reported in the
FY 2012INL Program and Budget Guide (PBG), a report submitted to Congress
annually, INL stated that funds will focus on "Afghanization" and sustainability.
In the Congressional Notification of our FY 2012 funding, INL explained that
programs will increasingly focus on building the capacity of the Afghan
government so that they may continue to sustainably deliver services at the
national and sub-national levels through transition in 2014 and beyond. INL is
actively working with the Afghan government to assume more responsibility for
many current programs, as well as working with our civil society partners to
engage in long-term planning.

Recommendation 3: OIG recommends that the Bureau of Budget and Planning
revise and reissue 18 FAM 300 to

   • require mandatory use of supplemental program management guidance for
     all Department programs and projects;
   • require all programs and projects prepare comprehensive management plans
     that include an overall strategy, goals, objectives, schedules, timelines, risks,
     and desired end state;


                                  UNCLASSIFIED




                                          24

                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                                  UNCLASSIFIED
                                      -5-

   • establish a threshold for programs and projects across all Department
     bureaus and offices for performance evaluation purposes;
   • require mandatory annual performance evaluations for all programs and
     projects that are high-risk or meet the designated threshold;
   • include guidance for evaluating sustainability of programs; and
   • require bureaus provide the evaluations to the Office of Performance and
     Planning for review.

INL Response (August 2013): INL recommends that this recommendation be
assigned to the Director of Foreign Assistance.

Recommendation 4: OIG recommends that the Bureau of Budget and Planning
establish a process for Department bureaus to provide performance evaluations of
the programs and projects and review the evaluations to ensure that the programs
and projects continue to be viable. Evaluations that do not reflect adequate
performance should be provided to appropriate officials to determine whether to
terminate, modify, or continue the program or project.

INL Response (August 2013): INL recommends that this recommendation be
assigned to the Director of Foreign Assistance.

Recommendation 5: OIG recommends that INL revise its program and project
guidance to reflect and align the recommended changes to Department guidance,
including requiring all INL programs and projects to follow the guidance and
ensure performance evaluations are conducted and reviewed for viability.

INL Response (August 2013): INL partially agrees with this recommendation,
but respectfully requests that the OIG clarify the use of the term "evaluation" in the
report. This is critical as it appears the OIG uses that term to describe three distinct
and separate terms: "Assessment", "Oversight", and "Evaluation." The definitions
below attempt to differentiate between evaluations which occur periodically over
the life of a program or project, assessments which can be implemented on an
annual basis, and oversight which occurs on an ongoing basis.

INL assessments are typically completed at the beginning of a program by subject
matter experts in a particular field and analyze the current situation of the country
and system that INL anticipates assisting, with recommendations provided for
program design and implementation. These assessments are then conducted on a
periodic basis to show variance in baseline data and progress in achieving intended


                                  UNCLASSIFIED




                                           25

                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                                 UNCLASSIFIED
                                        -6-

goals and objectives. In contrast, INL evaluations are conducted at the mid-point
or end of the lifecycle of a program or initiative. They must be independent and
follow sound mixed methodologies, including both quantifiable and qualitative
data to show evidence-based results and return on investment. The evaluations
utilize past assessments in their desk review and provide best practice
recommendations and lessons learned. Finally, INL oversight occurs throughout
the entire program life-cycle. This is often accomplished by a combination of
government and contractor support to ensure program implementation complies
with government requirements and intent. As concerns are identified throughout
the oversight process, INL makes changes to existing work plans and updates time,
scope, and resource requirements.

INL is aggressively pursuing the intent of the Department's current evaluation
policy and has completed or initiated five program evaluations since the
Department announced the policy in 2012. In recommendations three and four, the
OIG proposes annual performance evaluations for all programs and projects that
are high-risk or meet a designated threshold. Because evaluations utilize scientific
and statistical methods in an attempt to measure programmatic impact, they must
take into consideration the timeframe associated with measuring results in multi-
year foreign assistance programs or projects. OIG's recommendation of annual
evaluations will impact all foreign assistance programs and, if not timed correctly,
could provide unreliable information for decision makers.

Recommendation 6: OIG recommends that INL revise and update the
Performance Management Plan for CSSP in Afghanistan. The revisions should:

   • Align the CSSP PMP with the defmitions in the Department program
     management guidance, including a program goal that uses specific
     terminology, objectives that are specific and measurable, inputs that are
     resources used to produce outputs, outputs that are products and services
     delivered by the program, and outcomes that are declarative statements of
     long-term results at a fully successful level;

   • Establish a methodology for linking CSSP outcomes to achieving the
     program goal;

   • Require Government (or third-party) validation of Contractor-collected data;




                                 UNCLASSIFIED




                                          26

                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



                                UNCLASSIFlED
                                    -7-

   • Establish a quarterly evaluation and reporting process for the Afghan
     government's progress in meetings its CSSP commitments; and

   • Include suspense dates and distribution processes for reporting CSSP data

INL Response (August 2013): As detailed below, INL partially agrees with this
recommendation and is committed to working with the OIG to improve the CSSP
PMP. INL believes that some of the OIG's requested changes are already in place
or are not appropriate or viable for the CSSP PMP.

   • Align the CSSP PMP with the definitions in the Department program
     management guidance, including a program goal that uses specific
     terminology, objectives that are specific and measurable, inputs that are
     resources used to produce outputs, outputs that are products and services
     delivered by the program, and outcomes that are declarative statements of
     long-term results at a fully successfollevel.
        o INL partially agrees with this recommendation. The OIG correctly
            identifies some misalignment in terms between the INL-drafted CSSP
           PMP and the Department's guidance. INL will work to align our
            efforts with such guidance.

   • Establish a methodology for linking CSSP outcomes to achieving the
     program goal.
        o INL partially agrees with this recommendation because such a
           methodology linking CSSP's program activities to its goals already
           exists through the CSSP PMP logical framework. However, INL will
           work to ensure that the CSSP PMP's methodology aligns with the
           Department's terminology and program management guidance.

   • Require Government (or third-party) validation ofContractor-collected
     data.
        o INL partially agrees with this recommendation and will work with the
           OIG to develop the best, most cost-effective mechanism for carrying
           out such validation. We fully support the importance of verifying data
           provided by the CSSP contractor. INL oversight ofCSSP-provided
           data occurs on a regular basis through site visits, review of contract
           deliverables, and analysis of INL-created CSSP output and outcome
           reporting templates. In the interim, INL has already required the
           CSSP implementer to hire a monitoring and evaluation expert to


                                UNCLASSIFIED




                                       27

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                                 UNCLASSIFIED
                                     -8-

             continue to improve data quality and performance management
             practices in line with the INL-drafted CSSP PMP.

   • Establish a quarterly evaluation and reporting process for the Afghan
     government's progress in meetings its CSSP commitments.
        o INL partially agrees with this recommendation and acknowledges the
           need to strengthen and codify the quarterly review process analyzing
           CSSP's performance as well as GDPDC's willingness to implement
           corrections reforms. However, INL requests clarification regarding
           this recommendation in two areas. First, this recommendation
           appears to imply that CSSP would mandate that the GDPDC meet
           certain programmatic commitments. As CSSP does not oversee
           GDPDC, but rather provides assistance to Afghan corrections officials
           in their administration of prisons and detention centers, this type of
           arrangement would be difficult to sustain. Second, as stated in the
           response to recommendation five, INL requests clarification of the
           term "evaluation," as implementing quarterly evaluations (meaning
           third party program reviews using empirically-based methods) would
           not be feasible.

   • Include suspense dates and distribution processes for reporting CSSP data.
        o INL partially agrees with this recommendation as such a process has
           already been implemented through the CSSP contract. However, INL
           will amend the CSSP PMP to include these processes.

INL hopes that the additional information is helpful for providing clarification for
the draft report. Please see Attachments 1-3 for additional information. We look
forward to our continued work with OIG.




                                 UNCLASSIFIED




                                          28

                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                                 UNCLASSIFIED
                                     -9-

  Attachment 1 - INL's Compliance with the Core Principles of the USAID
                   Sustainability Guidance of June 201l

INL satisfied the requirements of the Certification submitted to Congress on
November 28, 2012. Specifically, INL's CSSP is consistent with the core
principles of the USAID Administrator's Sustainability Guidance for USAID in
Afghanistan dated June 2011, which called for programs to develop Afghan
ownership and capacity, contribute to Afghan stability and confidence, and exhibit
cost effectiveness and program effectiveness.

USAID Core Principle: Afghan Ownership and Capacity

INL's CSSP was designed to increase Afghan ownership, Afghan capacity to
manage and lead, and Afghan commitment to sustain. Due to CSSP's efforts,
Afghanistan's General Directorate of Prisons and Detention Centers (GDPDC)
now has the capacity to train its corrections personnel and to operate 90 percent of
its corrections training courses with minimal support from CSSP. The last two
CSSP-Ied classes will be transitioned to Afghan trainers in December 2013.
Additionally, in the CSSP contract, INL directs CSSP to work toward ensuring
GDPDC's self-sufficiency by emphasizing sustainable operating procedures and
providing strategic guidance. Furthermore, CSSP's mentoring and other program
activities seek to build the Afghan government's capacity to manage correctional
institutions as international support decreases. These efforts are fully supported by
the Afghan government and align with broad policy objectives of developing
policies that ensure that the corrections system operates in accordance with
international standards.

USAID Core Principle: Contribution to Stability and Confidence

CSSP also contributes to stability and confidence in Afghanistan. CSSP supports
classification and case management personnel at all 33 provincial prisons in
Afghanistan. These efforts help separate prisoners affiliated with the insurgency
from the general population where infrastructure permits. CSSP also supports
Afghan efforts to provide educational, vocational, and industries programs to
promote prisoner rehabilitation and post-release reintegration. CSSP's support for
human rights training for corrections personnel has contributed to the GDPDC's
strong record on human rights, as reflected in the absence of GDPDC prisons and
detention centers from the 2011 and 2012 United Nations Assistance Mission-



                                 UNCLASSIFIED




                                         29

                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                                UNCLASSIFIED
                                    -10-

Afghanistan (UNAMA) reports naming Afghan detention and correctional
facilities with credible allegations of systemic torture and mistreatment.

USAID Core Principle: Cost Effectiveness and Program Effectiveness

INL reviews CSSP for cost effectiveness and program effectiveness. In 2012, INL
conducted a review ofthe contract upon which the FY 2012 funds were later
obligated, analyzing the Contractor's proposal for program sustainability,
alignment with program goals, and cost effectiveness. In March 2011, INL's chief
corrections subject matter expert completed an assessment of the Afghan prison
system, including CSSP activities and performance. The resulting report, issued in
draft form to INL program officers, identified several areas for improvement but
found that CSSP mentors enjoyed strong relationships with their Afghan
counterparts and that CSSP successfully increased GDPDC's classification and
training capabilities.

INL also revised CSSP's reporting requirements in October 2011 to better measure
programmatic performance, including requiring trainee test scores and outcome
statements from CSSP advisors following mentoring sessions. INL verified
program effectiveness through ongoing analysis of these CSSP monthly and
quarterly reports, in addition to ongoing INL program officer site visits and
reviews ofCSSP's narrative weekly reports.

INL program officers conduct ongoing reviews of CSSP activities to ensure the
sustainable transition of programs intended for eventual Afghan operational
leadership, such as classification and case management, and the administration of
training classes. Our ongoing reviews also assess the outcomes ofCSSP's
mentoring and capacity building activities, which are designed to develop a
sustainable capacity to administer a safe, secure, and humane corrections system.




                                UNCLASSIFIED




                                         30

                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                                  UNCLASSIFIED
                                      -11-

Attachment 2: Major CSSP Contributions to the Afghan Corrections System

INL 's CSSP has effectively assisted the Afghan government in developing a safer,
more secure and humane Afghan corrections system.

In 2006, fewer than 10,000 people were incarcerated in Afghanistan's prison
system. The Afghan government did not have control over all of the provincial
prisons, could not respond effectively and humanely to serious incidents such as
riots or hostage crises, and did not have an organized basic training program for its
corrections personnel. The Afghan government had no standardized records
system or institutional capacity to help prison commanders securely and humanely
organize, segregate, and track inmate populations nationwide based on the severity
and nature of their crimes. Insurgents, violent criminals, and nonviolent offenders
were co-mingled in a chaotic, largely inhumane system. Prisons and detention
centers were centers for recruitment and radicalization by the Taliban.

Today, the Afghan government manages a population of over 28,000 prisoners and
detainees. Nearly 7,000 are National Security Threat (NST) inmates linked to the
insurgency, which directly threatens Afghanistan's future. INL's CSSP, by far the
largest donor to Afghanistan's corrections system, has been critical in helping the
Afghan government manage this exponential increase in prison population,
establish standard operating procedures at key facilities, and counter the significant
threat posed by NST inmates.

Since the CSSP program started in 2006, INL has assisted the GDPDC in
deploying an advanced classification tool to separate dangerous and nonviolent
offenders where infrastructure permits. As of July 2013, CSSP Afghan staff and
GDPDC records management officers have classified a total of over 30,000
prisoners in all 33 provincial prisons. This represents a significant improvement in
the Afghan government's ability to prevent insurgents and criminals from
advocating and planning attacks while they are incarcerated. There have been
some noteworthy results as well on the human rights front. In 2011 and 20 12, the
United Nations Assistance Mission- Afghanistan (UNAMA) released reports
documenting systemic torture and mistreatment at Afghan detention facilities.
None of the facilities run by the GDPDC were named in the reports as exhibiting
signs of systematic torture or mistreatment.




                                 UNCLASSIFIED




                                          31

                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                                UNCLASSIFIED
                                    -12-

INL 's CSSP assistance is focused on building sustainable capacity within the
Afghan government 's GDPDC.

CSSP has helped the Afghan government develop the capacity to train its own
corrections officers to develop a professional corps of corrections officers who
understand human rights issues, are able to practice proper security measures, and
effectively manage prison operations. A new CSSP training effort is also focused
on supporting a sustainable Afghan capacity to conduct facility maintenance and
other repairs at correctional facilities, historically a major weakness for GDPDC.
Finally, over 90 percent of training courses are now conducted by GDPDC with
minimal CSSP assistance, and by 2014, all ofGDPDC's training courses will be
taught by GDPDC trainers - a significant milestone in terms of program
sustainability. The training has produced some dramatic results. In 2008, for
example, NST inmates controlled two large sections of Pol-i-Chark.hi prison where
they pressed other prisoners to join the insurgency and operated their own court
and training center. A CSSP-trained Afghan Emergency Response Team (ERT)
retook the insurgent-controlled areas of the prison and returned them to GDPDC
control. GDPDC has since utilized this Afghan ERT capacity to quell riots and
other disturbances at prisons throughout Afghanistan.

By design, CSSP is reducing its presence and decreasing the number of its
American advisors in Afghanistan. In August 2011, there were over 70 CSSP
advisors in Afghanistan; today there are 50 advisors with further reductions
planned. The program is relying increasingly on its Afghan professional staff- a
move which will decrease costs while slowly transferring program responsibilities
to the Afghan government. INL has also placed a critical focus on specialized
senior mentoring at GDPDC headquarters in Kabul, an effort which will help us
cement the gains we have helped the Afghan government realize in its corrections
system.

INL makes an extensive effort to monitor, oversee, and evaluate CSSP, and it is
continually improving these processes.

As part ofiNL's oversight regime, INL requires weekly, monthly, quarterly, and
annual reporting as part of the CSSP contract. INL program officers and contract
specialists review regular and periodic financial reports required by the contract,
including invoices; verify deliverables through frequent contact with CSSP and
Afghan government officials; engage in weekly phone calls between program staff
in Washington and Kabul to jointly review CSSP performance and address urgent


                                UNCLASSIFIED




                                         32

                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



                                 UNCLASSIFIED
                                     -13-

policy issues; and conduct site visits to CSSP project sites and CSSP headquarters
in Kabul.

With respect to monitoring and evaluation activities, INL developed and began
implementing a PMP specifically for CSSP in October 2011. INL program
officers and contracting representatives review weekly, monthly, and quarterly
reports on an ongoing basis to ensure CSSP compliance with program objectives.
lNL also rewrote the CSSP statements of work on at least an annual basis since
2006 to recalibrate the program as a result of ongoing careful analysis of the
program's implementation and impact.

Finally, INL's chief corrections subject matter expert either led or participated in
four assessments of the Afghan corrections system between 2008 and 20 I I . INL is
deploying three subject matter experts to Afghanistan in September 2013 to
conduct another assessment with a focus on assisting the Afghan government in
maintaining sustainable corrections system operations post 2014.




                                 UNCLASSIFIED




                                         33

                     SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                      UNCLASSIFIED
                                             -14-

             Attachment 3 - INL Technical Corrections to Draft OIG Report

      fNL respectfully requests that the OIG incorporate the proposed technical
      corrections below into the final report.

 1.      Page 2, paragraph one: fNL notes that the CSSP PMP began implementation in
         October 2011. The PMP was formally approved in October 2012, but as fNL
         communicated to the OIG audit team on July 18,2013, fNL began
         implementing the plan in October 2011. INL respectfully requests that this
         clarification be explained in the OIG' s report.

u.       Page 2, paragraph 2: fNL disagrees with OIG's statement that as a result of a
         failure to fully implement the June 2011 USAID Sustainability Guidance "INL
         has no basis for determining whether CSSP is an effective program with a
         positive return on its $226 investment."

         We note that this section of the Certification became law in December 2011 and
         INL funds subject to these requirements were only made available in March
         2013 for use on the CSSP contract. INL disagrees that a failure to fully
         implement policy guidance that became law in 2011 resulted in fNL having "no
         basis" to determine effectiveness for a program begun in 2006. Prior to
         December 2011, INL had already begun implementing the CSSP PMP, adding
         to robust program oversight mechanisms such as ongoing reviews of weekly,
         monthly, and quarterly reporting; annual revisions of statements ofwork;
         program officer site visits; and periodic assessments, among other methods
         described in this response.

m.       Page 6, first paragraph under fNL Program Certification: The OIG refers to the
         Department's November 2012 Certification to Congress in the following
         sentence: "Specific to the corrections program, the certification states that to
         achieve sustainability, INL has implemented a train-the-trainers program ... "
         We request that the OIG revise the previous sentence to clarify that this
         information was contained in the Memorandum of Justification accompanying
         the Certification.

iv.      Page 7, first sentence under Program Reviews Were Not Conducted: · Although
         the CSSP PMP was not officially approved until October 2012, INL began
         implementing the plan in October 2011 , as communicated to the OIG on July
         18,2013.


                                      UNCLASSIFIED




                                               34

                           SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



                                   UNCLASSIFIED
                                       -15-

v.    Page 8, first paragraph under Sustainment Costs and Activities Were Not
      Identified: The OIG references the Department's November 2012 Certification
      to Congress in the following sentence, "Although the certification to Congress
      and the Mission Kabul Portfolio Review identified sustainment-related activities
      that have been implemented for the Afghan corrections system, INL had not
      identified the costs or plans for [the Afghan government] to sustain CSSP."
      INL requests that the OIG amend the sentence above to reflect that fact that the
      Memorandum of Justification described the sustainment-related activities, not
      the Department's November 2012 Certification.

vi.   Page 9, first paragraph under Evaluation and Reporting Process was not
      Developed: The OIG states that" ... INL had not completed an initial review or
      developed a process for quarterly evaluations and reporting prior to its
      certification to Congress on November 28, 2012." In fact, INL had conducted a
      review, specifically the aforementioned Mission Kabul Portfolio Review, prior
      to that date. Additionally, as stated previously, INL's program officers and
      contract officials provided continuous monitoring ofCSSP, including weekly,
      monthly, and quarterly reviews of contractor reporting. These ongoing reviews
      were supplemented by site visits to Afghan correctional facilities conducted by
      Embassy Kabul's corrections subject matter experts. These site visits, which
      occurred on at least a monthly basis, allowed INL program officers to directly
      observe CSSP activities and CSSP's engagement with Afghan prison staff.




                                   UNCLASSIFIED




                                            35

                       SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                                                                 (U) Appendix C

 (U) Office of Inspector General Replies to Bureau of International Narcotics
              and Law Enforcement Affairs Technical Comments
        (U) In its August 20, 2013, response to the draft report on the Corrections System
Support Program (CSSP) (see Appendix B), the Bureau of International Narcotics and Law
Enforcement Affairs (INL) provided technical comments that did not relate directly to the
recommendations. As appropriate, the Office of Inspector General (OIG) incorporated those
technical comments that it could validate into the report. INL’s principal comments and OIG’s
replies are as presented.

                             (U) Performance Management Plan

(U) INL Comments (page 2, paragraph 1)

        (U) “INL notes that the CSSP [performance management plan] began implementation in
October 2011. The [performance management plan] was formally approved in October 2012,
but as INL communicated to the OIG audit team on July 18, 2013, INL began implementing the
plan in October 2011. INL respectfully requests that this clarification be explained in the OIG's
report.”

(U) INL Comments (page 8, paragraph 1)

       (U) “Although the CSSP [performance management plan] was not officially approved
until October 2012, INL began implementing the plan in October 2011, as communicated to the
OIG on July 18, 2013.”

(U) OIG Reply

         (U) OIG revised the report based on the comments. OIG disagrees with INL’s statement
that it began “implementing” the CSSP performance management plan in October 2011. In
September 2012, INL officials told OIG that they were in the “first step” to creating a usable
performance management plan for CSSP and that the plan dated October 2011 was only a draft
and should not be evaluated. However, to clarify the actions taken by INL concerning the
performance management plan, OIG added a footnote, stating that “INL began developing the
CSSP performance management plan in 2011 with the first draft dated October 2011; the final
performance management plan was approved and issued in October 2012.”

              (U) U.S. Agency for International Development Sustainability Guidance

(U) INL Comments (page 1, paragraph 3)

       (U) “INL disagrees with OIG's statement that as a result of a failure to fully implement
the June 2011 [U.S. Agency for International Development (USAID)] Sustainability Guidance

                                               36

                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

‘INL has no basis for determining whether CSSP is an effective program with a positive return
on its $226 [million] investment.’ We note that this section of the Certification became law in
December 2011 and INL funds subject to these requirements were only made available in March
2013 for use on the CSSP contract. INL disagrees that a failure to fully implement policy
guidance that became law in 2011 resulted in INL having ‘no basis’ to determine effectiveness
for a program begun in 2006. Prior to December 2011, INL had already begun implementing the
CSSP [performance management plan], adding to robust program oversight mechanisms such as
ongoing reviews of weekly, monthly, and quarterly reporting; annual revisions of statements of
work; program officer site visits; and periodic assessments, among other methods described in
this response.”

(U) OIG Reply

        (U) OIG did not revise the report based on the comment. OIG did not state that the
reason the Department’s $226 million investment is at risk is because INL did not fully
implement the USAID sustainability guidance. OIG cited the Department’s lack of clear,
comprehensive, and mandatory guidance for INL having “no basis” for determining whether
CSSP is an effective program with a positive return on investment. Had a performance
management plan been developed and had periodic program effectiveness reviews been
conducted, INL may have been prepared to meet the June 2011 USAID sustainability guidance
and therefore the Consolidated Appropriations Act of 2012 requirements. OIG maintains the
position that if GIRoA is unable to sustain the corrections system, the Department’s $226 million
investment in the Afghanistan corrections system is at risk.

        (U) At current Government of the Islamic Republic of Afghanistan (GIRoA) funding
levels, and without international support, the number of courses the GDPDC trainers can teach
and improvements in prison management become less relevant if the GDPDC cannot retain its
staff. According to the GDPDC Director, there is a 33 percent attrition rate among the officers,
many of whom cited salary concerns as the primary reason for leaving the GDPDC. The
Director also stated that the officers’ counterparts in the national police receive a higher salary
and that additional staff will likely leave to seek jobs with more reliable salaries if international
funding for the corrections system is reduced and if GIRoA is unable to sustain the GDPDC
budget, which is currently the case.

        (U) OIG disagrees with INL’s statement that it began “implementing” the CSSP
performance management plan in October 2011. In September 2012, INL officials told OIG that
they were in the “first step” to creating a usable performance management plan for CSSP and
that the plan dated October 2011 was only a draft and should not be evaluated. Further, the
“robust program oversight mechanisms” that INL cites in its technical response pertains to
oversight of the contractor and not oversight of the CSSP.

(U) INL Comments (page 10, paragraph 1)

       (U) “The OIG states that ‘…INL had not completed an initial review or developed a
process for quarterly evaluations and reporting prior to its certification to Congress on November

                                                  37

                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

28, 2012.’ In fact, INL had conducted a review, specifically the aforementioned Mission Kabul
Portfolio Review, prior to that date. Additionally, as stated previously, INL’s program officers
and contract officials provided continuous monitoring of CSSP, including weekly, monthly, and
quarterly reviews of contractor reporting. These ongoing reviews were supplemented by site
visits to Afghan correctional facilities conducted by Embassy Kabul’s corrections subject matter
experts. These site visits, which occurred on at least a monthly basis, allowed INL program
officers to directly observe CSSP activities and CSSP's engagement with Afghan prison staff.”

(U) OIG Reply

       (U) OIG did not revise the report based on the comment. As OIG states in the report, the
Mission Kabul Portfolio Review did not fully meet USAID sustainability guidance requirements.
Further, as OIG also stated in the report, INL acknowledged it had “voluminous” contractor
provided data but had not used it to determine CSSP progress, results, or effectiveness.

                   (U) Congressional Certification Memorandum of Justification

(U) INL Comments (page 7, paragraph 3)

        (U) “The OIG refers to the Department’s November 2012 Certification to Congress in the
following sentence: ‘Specific to the corrections program, the certification states that to achieve
sustainability, INL has implemented a train-the-trainers program....’ We request that the OIG
revise the previous sentence to clarify that this information was contained in the Memorandum of
Justification accompanying the Certification.”

(U) INL Comments (page 9, paragraph 1)

        (U) “The OIG references the Department's November 2012 Certification to Congress in
the following sentence, ‘Although the certification to Congress and the Mission Kabul Portfolio
Review identified sustainment-related activities that have been implemented for the Afghan
corrections system, INL had not identified the costs or plans for [the Afghan government] to
sustain CSSP.” INL requests that the OIG amend the sentence above to reflect that fact that the
Memorandum of Justification described the sustainment-related activities, not the Department’s
November 2012 Certification.”

(U) OIG Reply

        (U) OIG revised the report based on the comments to clarify that the information was
contained in the Memorandum of Justification accompanying the certification to Congress and
not the certification itself.




                                               38

                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



(U) Major Contributors to This Report

(U) Carol N. Gorman, Deputy Assistant Inspector General
Middle East Region Operations Directorate
Office of Audits

(U) Beverly J.C. O’Neill, Audit Director
Middle East Region Operations Directorate
Office of Audits

(U) Mohamed K. Abdou, Audit Manager
Middle East Region Operations Directorate
Office of Audits

(U) Sarah Soun, Management and Program Analyst
Middle East Region Operations Directorate
Office of Audits




                                            39

                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
